                              Office of the Inspector General

September 29, 1999


John R. Dyer

Principal Deputy Commissioner

 of Social Security


Acting Inspector General



Identification of Beneficiaries Confined to Mental Health Institutions (A-01-99-61005)



Attached is a copy of the subject final report. The objective of our review was to determine

whether the Social Security Administration is receiving all available information on Old-

Age, Survivors, and Disability Insurance beneficiaries and/or Supplemental Security

Income recipients who are confined to mental health institutions. The attached report

presents the results of our survey of State agencies.


You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to comment, please provide your comments within the

next 60 days. If you wish to discuss the final report, please call me or have your staff

contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-9700.





                                                  James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      IDENTIFICATION OF
  BENEFICIARIES CONFINED TO
 MENTAL HEALTH INSTITUTIONS

  September 1999   A-01-99-61005




EVALUATION

  REPORT

                                     Office of the Inspector General

September 29, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Identification of Beneficiaries Confined to Mental Health Institutions (A-01-99-61005)


OBJECTIVE

The objective of our review was to determine whether the Social Security Administration
(SSA) is receiving all available information on Old-Age, Survivors and Disability Insurance
(OASDI) beneficiaries and/or Supplemental Security Income (SSI) recipients who are
confined to mental health institutions.

BACKGROUND

Public Law (P. L.) 103-387 amended title II of the Social Security Act (Act) to prohibit
OASDI benefit payments to certain categories of confined persons beyond those already
prohibited from receiving benefits.1 Specifically, section 202(x)(1)(A) of the Act states:
      “. . . no monthly benefits shall be paid . . . to any individual for any month during
      which such individual . . . is confined by court order in an institution at public
      expense in connection with:
          (I)	     a verdict or finding that the individual is guilty but insane, with respect
                   to an offense punishable by imprisonment for more than 1 year,
          (II)	    a verdict or finding that the individual is not guilty of such an offense by
                   reason of insanity,
          (III)	   a finding that such individual is incompetent to stand trial under an
                   allegation of such an offense, or




1
    The law was enacted on October 22, 1994 and was effective for benefits paid February 1995 or after.
Page 2 – John R. Dyer

        (IV)	   a similar verdict or finding with respect to such an offense based on
                similar factors (such as a mental disease, a mental defect, or mental
                incompetence).”

The Act further states that any agency of any State “. . . shall make available to the
Commissioner of Social Security, upon written request, the name and Social Security
account number of any individual who is confined . . . .” Also, section 1611(e)(1)(A) of the
Act prohibits payment of SSI benefits to a recipient for “. . . any month if throughout such
month he is an inmate of a public institution.”

SSA issued procedures to its regional and field offices on March 1, 1996 advising them to
obtain new matching agreements with States because of the provisions of P.L. 103-387
regarding individuals confined at public expense.

SCOPE AND METHODOLOGY

Between June 1998 and May 1999, we contacted mental health agencies in each State
and the District of Columbia to determine whether SSA was receiving information about
individuals held in such facilities. We asked officials if they provided the information about
confined individuals to SSA. If the institution was not providing the information, we
ascertained the number of individuals confined.

Additionally, to accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations and program guidelines;

    •	 interviewed SSA officials regarding the suspension of benefits to individuals
       confined for criminal findings involving insanity and the receipt of information from
       specific mental health institutions; and

    •	 obtained a report from SSA summarizing the status of data agreements with mental
       health institutions for 24 States2 and the District of Columbia as of May 1999.

We conducted our survey work in Boston, Massachusetts, between June 1998 and
May 1999. We performed our work in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




2
 Connecticut, New Hampshire, Vermont, Maine, Delaware, Maryland, Pennsylvania, West Virginia,
Alabama, Florida, Kentucky, Mississippi, Illinois, New Mexico, Oklahoma, Louisiana, Nebraska, Iowa,
Colorado, Montana, California, Idaho, Oregon, Washington.
Page 3 – John R. Dyer

RESULTS OF REVIEW

SSA is receiving most of the State information available for use in suspending OASDI and
SSI benefits to individuals confined in mental health institutions. However, we identified 6
States that were not providing SSA with information for 407 individuals.

                        States With Data Not           Number of Individuals
                          Provided to SSA                  Confined
                       Alabama                                  50
                       Alaska                                     6
                       Idaho                                      1
                       Iowa                                       3
                       Kentucky                                 25
                       Maryland                                322
                       Total                                   407


Our survey of the 50 States and the District of Columbia found that:
    •	 Forty-four States and the District of Columbia provide complete mental health
       institution inmate information to SSA.3

    •	 Two States (Kentucky and Maryland) do not provide any information to SSA. These
       States house approximately 347 individuals in mental health institutions. SSA
       informed us that it is attempting to reach an agreement with Kentucky to obtain their
       information. However, no plans are underway to obtain Maryland’s data. Maryland
       officials indicated that they are concerned about the confidentiality of the information
       SSA needs, but they are willing to discuss the matter further with SSA.

    •	 Three States (Alabama, Idaho, and Iowa) provide partial information to SSA.
       Alabama is only providing inmate data from 3 of its 5 facilities; and the 2 facilities
       that are not reporting to SSA house approximately 50 individuals. One of the two
       facilities in Idaho, which is housing one individual, does not report its information to
       SSA. One of the four facilities in Iowa, housing three individuals, does not report its
       information to SSA. SSA officials stated they would follow up with these facilities.

    •	 One State (Alaska) informed us that its law regarding insanity in a criminal offense
       was changed in 1983. Since 1983, individuals are no longer found “not guilty by
       reason of insanity” (NGRI), but are found “guilty but insane” and confined in prison.
       Since these individuals have been held in prison since the 1983 change in State
       law, SSA should be obtaining this information under its prisoner matching
3
 We did not test SSA’s processing of the data from the 44 States as part of this review to ensure that it
was being used to identify and suspend benefit payments.
Page 4 – John R. Dyer

        agreement with Alaska. However, we found that six individuals are currently
        confined in the Alaska Psychiatric Institute with a finding of NGRI stemming from a
        criminal offense prior to the 1983 change in State law.

        The institute provided us with the names and Social Security numbers of these six
        individuals, and we found that one individual was receiving OASDI benefits. We
        forwarded this information to the Office of the Inspector General, Office of
        Investigations (OI). OI investigated the case and found that this individual has been
        confined to the Alaska Psychiatric Institute since March 12, 1982, after being found
        NGRI on a first degree assault charge. Through this entire period, this individual
        has been receiving OASDI disability benefits through a direct deposit bank account.
        However, he was not entitled to these benefits beginning in February 1995 when
        P.L. 103-387 took effect. OI notified SSA, and as a result, SSA terminated the
        benefits in November 1998. SSA determined that he was overpaid $34,165. OI’s
        projected cost savings for this case are $47,208.4

RECOMMENDATION

We recommend that SSA secure the information needed from any State or facility that is
not currently providing data, so that OASDI and/or SSI benefits can be suspended to
individuals who are not entitled to receive them.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. (See Appendix A
for the full text of SSA’s comments to our draft report).




                                                         James G. Huse Jr.




4
  OI calculated the savings by multiplying the individual’s monthly payment of $786.80 times 60 months (5
years) for a total of $47,208.
APPENDICES

                   APPENDIX A



AGENCY COMMENTS

                                                               APPENDIX B



MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General


Roger J. Normand, Director, Northern Program Audit Division

Rona Rustigian, Deputy Director

Judith Oliveira, Auditor

David Mazzola, Auditor



For additional copies of this report, please contact the Office of the
Inspector General’s Public Affairs Specialist at (410) 966-5998. Refer to
Common Identification Number A-01-99-61005.
                        APPENDIX C



SSA ORGANIZATIONAL CHART

